No. 20-5993
IN THE
SUPREME COURT OF THE UNITED STATES
KEITH A. JAMES,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Samantha J. Kuhn, court-appointed counsel for Petitioner Keith James, do
hereby certify that on this date, February 2, 2021, I transmitted an electronic version
of the enclosed Reply Brief of Petitioner to the following:
Jeffrey B. Wall
Acting Solicitor General of the United States
SupremeCtBriefs@usdoj.gov
Counsel for Respondent
The Office of the Solicitor General advised undersigned counsel via email that
it agrees to electronic service at the e-mail address identified above, in light of this
Court’s order dated April 15, 2020, related to the COVID-19 pandemic. Accordingly,
no paper copies have been mailed to the Solicitor General.
I further certify that all parties required to be served have been served.

Respectfully submitted this 2nd day of February, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org
Counsel for Petitioner

2

